Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




SOUTH CAROLINA DID NOT ALWAYS
ACCURATELY REPORT AND REFUND
THE FEDERAL SHARE OF MEDICAID
 COLLECTIONS FOR JULY 1, 2011,
  THROUGH DECEMBER 31, 2012


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     Lori S. Pilcher
                                               Regional Inspector General
                                                   for Audit Services

                                                        June 2014
                                                      A-04-13-00092
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 For the period July 1, 2011, through December 31, 2012, South Carolina underreported
 the Federal share of its Medicaid collections to be refunded to the Federal Government by
 $445,000.

WHY WE DID THIS REVIEW

The Federal Government pays its share of a State’s medical assistance costs under the Medicaid
program on the basis of the Federal medical assistance percentage (FMAP), which varies
depending on the State’s relative per capita income. Previous Office of Inspector General
reviews have shown that States did not always report collections properly or refund the Federal
share at the appropriate FMAP.

The objective of our audit was to determine whether the South Carolina Department of Health
and Human Services (State agency) accurately reported Medicaid collections for July 1, 2011,
through December 31, 2012 (audit period).

BACKGROUND

Title XIX of the Social Security Act (the Act) established the Medicaid program to provide
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In South Carolina, the State agency
administers the Medicaid program.

The FMAP varies depending on the State’s relative per capita income. Although FMAPs are
adjusted annually for economic changes in the States, Congress may increase FMAPs at any
time.

States claim Medicaid expenditures and the associated Federal share on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (CMS-64). The CMS-64 shows
the disposition of Medicaid funds used to pay for medical and administrative costs for the quarter
being reported and any prior-period adjustments.

To account for overpayments, refunds, and similar receipts, States report collections on the
CMS-64. Collections decrease both the total expenditures reported for a quarter and the amount
of Federal funding that States receive. If collections are underreported, the Federal share for the
quarter will be higher than it should be. Conversely, overreporting collections results in a lower
Federal share.




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   i
WHAT WE FOUND

For the audit period, the State agency generally accurately reported Medicaid collections on its
CMS-64s. Of about $306 million in total collections, the State agency accurately reported and
refunded the Federal share on about $294 million; however, it did not accurately report or refund
the Federal share on about $12 million in collections related to third-party liability (TPL) claims
and program integrity (PI) recoupments. For these collections, the State agency used the current
FMAP, instead of the FMAP in effect at the time that the Federal Government matched the
original expenditure, to calculate the Federal share to be refunded. As a result, the State agency
underreported $444,806 Federal share of collections to be refunded to the Federal Government.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $444,806 to the Federal Government and

    •   develop and implement internal controls to ensure that it uses specific-period FMAPs to
        calculate the Federal share of TPL and PI collections to be refunded.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations and
described corrective actions that it had taken or planned to take to address them.




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   ii
                                                    TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................1

           WHY WE DID THIS REVIEW ...................................................................................1

           OBJECTIVE .................................................................................................................1

           BACKGROUND ..........................................................................................................1
               The Medicaid Program: How It Is Administered and How States
                Claim Federal Reimbursement for Expenditures ...........................................1
               South Carolina Department of Health and Human Services ............................2

           HOW WE CONDUCTED THIS REVIEW ..................................................................2

FINDING ..................................................................................................................................3

           FEDERAL SHARE INACCURATELY REPORTED FOR COLLECTIONS ..........3
                Medicaid Management Information System Too Restrictive, Burdensome,
                 and Challenging .............................................................................................3

RECOMMENDATIONS ..........................................................................................................4

STATE AGENCY COMMENTS .............................................................................................4

APPENDIXES

           A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS ........................... 5

           B: AUDIT SCOPE AND METHODOLOGY ............................................................. 6

           C: FEDERAL REQUIREMENTS .............................................................................. 8

           D: STATE AGENCY COMMENTS .......................................................................... 9




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)                                     iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

The Federal Government pays its share of a State’s medical assistance costs under the Medicaid
program on the basis of the Federal medical assistance percentage (FMAP), which varies
depending on the State’s relative per capita income. Previous Office of Inspector General
reviews have shown that States did not always report collections properly or refund the Federal
share at the appropriate FMAP (Appendix A).

OBJECTIVE

The objective of our audit was to determine whether the South Carolina Department of Health
and Human Services (State agency) accurately reported Medicaid collections for July 1, 2011,
through December 31, 2012 (audit period).

BACKGROUND

The Medicaid Program: How It Is Administered and How States Claim Federal
Reimbursement for Expenditures

Title XIX of the Social Security Act (the Act) established the Medicaid program to provide
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In South Carolina, the State agency
administers the Medicaid program.

The Federal Government pays its share of a State’s medical assistance costs under Medicaid on
the basis of the FMAP, which varies depending on the State’s relative per capita income (section
1905(b) of the Act). States with a lower per capita income relative to the national average are
reimbursed a greater share of their costs. States with a higher per capita income are reimbursed a
lesser share. For the audit period, South Carolina’s FMAP ranged from 70.04 percent to 70.43
percent. Although FMAPs are adjusted annually for economic changes in the States, Congress
may increase FMAPs at any time. 1

The States claim Medicaid expenditures and the associated Federal share on the Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64). The
CMS-64 shows the disposition of Medicaid funds used to pay for medical and administrative
costs for the quarter being reported and any prior-period adjustments. The amount claimed on

1
  For example, Congress passed the Recovery Act which provided additional Federal funding based on temporary
increases in States’ FMAPs (P.L. No. 111-5, § 5000 (Feb. 17, 2009)).



South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)      1
the CMS-64 is a summation of expenditures derived from source documents, such as claims,
invoices, cost reports, and eligibility records.

To account for overpayments, refunds, and similar receipts, States report collections on the
CMS-64. Collections decrease both the total expenditures reported for a quarter and the amount
of Federal funding that States receive. If collections are underreported, the Federal share for the
quarter will be higher than it should be. Conversely, overreporting collections results in a lower
Federal share.

South Carolina Department Of Health And Human Services

At the end of each quarter, a State agency official used a State-generated general ledger report to
identify collections to be reported on the CMS-64. Among other things, it included collections
related to third-party liability (TPL) sources 2 and program integrity (PI) efforts. 3

As shown on the following graph, the State agency reported collections totaling about $305.7
million ($214.7 million Federal share) on its CMS-64s for the audit period.

                         Collections and Federal Share Reported on the CMS-64
                                           Reports ($Million)
         $100
                                                                               $65.9
                              $52.4                                                      $55.9
                    $40.7               $46.9     $43.9                            $46.2
           $50                    $36.8     $33.0                                            $39.4
                        $28.5                         $30.8


            $0
                     Q3 2011 Q4 2011 Q1 2012                      Q2 2012 Q3 2012 Q4 2012
                          Total Collections ($305.7)               Federal Share ($214.7)


HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid collections reported on the State agency’s CMS-64s from
July 1, 2011, through December 31, 2012 (audit period). We reviewed these collection amounts
and supporting documentation to determine whether the State agency adequately supported
specific-period FMAPs used to calculate the Federal share of collections refunded on the
CMS-64s.



2
 TPL sources included collections from private health insurance, Medicare, employment-related health insurance,
medical support from non-custodial parents, long-term care insurance, other federal programs, court judgments or
settlements from a liability insurer, State workers’ compensation, and first party probate-estate recoveries.
3
    The purpose of PI efforts is to guard against fraud, abuse, and deliberate waste of Medicaid program benefits.



South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)            2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, and Appendix C contains
Federal requirements.

                                                FINDING

For the audit period, the State agency generally accurately reported Medicaid collections on its
CMS-64s. Of about $306 million in total collections, the State agency accurately reported and
refunded the Federal share on about $294 million; however, it did not accurately report or refund
the Federal share on about $12 million in collections related to TPL claims and PI recoupments.
For these collections, the State agency used the current FMAP, instead of the FMAP in effect at
the time that the Federal Government matched the original expenditure, to calculate the Federal
share to be refunded. As a result, the State agency underreported $444,806 Federal share of
collections to be refunded to the Federal Government.

FEDERAL SHARE INACCURATELY REPORTED FOR COLLECTIONS

CMS reimburses each State at the FMAP for the quarter in which the expenditure was made
(section 1903(a)(1) of the Act). According to section 2500.1(B) of the CMS State Medicaid
Manual (the Manual), the State agency must report an overpayment or other collection on the
CMS-64 report for the quarter in which the recovery is made and must compute the Federal share
of collections at the Federal matching rate at which CMS matched the original expenditure.

For the audit period, the State agency applied the current FMAP in effect at the time of
collections to all $306 million in collections when calculating the Federal share to be refunded to
the Federal Government. According to Federal requirements, if the State agency has the ability
to match collections to a specific-period FMAP, then the State agency should compute the
Federal share to be refunded at the specific-period FMAP that was in effect at the time the
Federal Government matched the original expenditures. For about $12 million in collections
related to TPL claims and PI recoupments, the State agency elected to use the current FMAP,
instead of the FMAP in effect at the time that the Federal Government matched the original
expenditure, to calculate the Federal share to be refunded.

Using the specific-period FMAP in effect at the time in which the Federal Government matched
original expenditures, we calculated an underreported Federal share of $444,806 of collections to
be refunded to the Federal Government.

Medicaid Management Information System Too Restrictive, Burdensome, and Challenging

According to State agency officials, it was too restrictive, burdensome, and challenging to make
South Carolina’s Medicaid Management Information System (MMIS) maintain all of the FMAP



South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   3
rates used in recouping funds, particularly as data needed to be purged for capacity management.
Considering the percentage differences between the various FMAPs immaterial, the State agency
had previously elected to have the MMIS automatically calculate the Federal share of TPL and
PI collections using the current FMAP, instead of the FMAP in effect at the time of the original
expenditure. State agency officials also stated that these differences had increased as TPL and
PI collections increased and that MMIS enhancements currently underway would address this
deficiency.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $444,806 to the Federal Government and

    •   develop and implement internal controls to ensure that it uses specific-period FMAPs to
        calculate the Federal share of TPL and PI collections to be refunded.

                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations and
described corrective actions that it had taken or planned to take to address them.




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                           Report Title                              Report Number          Date Issued

   Georgia Did Not Always Accurately Report and Refund               A-04-12-00085            4/22/14
   the Federal Share of Medicaid Collections for
   Calendar Years 2008 Through 2011
   Delaware Did Not Comply With Federal Requirements                 A-03-11-00203            6/28/12
   To Report All Medicaid Overpayment Collections
   States Inappropriately Retained Federal Funds for                 A-06-11-00064            6/22/12
   Medicaid Collections for the First Recovery Act
   Quarter
   Review of Oklahoma Collections for the Medical                    A-06-10-00057             1/5/12
   Assistance Program for Calendar Years 2004 Through
   2009




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   5
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered Medicaid collections totaling 305,747,201 ($214,747,859 Federal share)
reported on the CMS-64s for July 1, 2011, through December 31, 2012 (audit period).

We limited our review to documentation supporting the collections reported on the CMS-64s and
the methodologies that the State agency used to calculate the Federal share of collections. We
did not review the overall internal control structure of the State agency or the Medicaid program.
Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency offices in Columbia, South Carolina, from March
2013 through March 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements and applicable sections of the Manual;

    •   interviewed State agency officials to gain an understanding of its procedures for
        identifying and reporting collections on the CMS-64s;

    •   interviewed State agency Medicaid Fraud Unit (MFU) personnel to determine whether
        the MFU deducted investigative expenses before sending the restitutions to the State
        agency for calculation of the Federal Share;

    •   interviewed the TPL contractor to gain an understanding of its collection efforts and how
        collections were reported to the State agency;

    •   obtained and analyzed quarterly CMS-64s for the audit period, along with supporting
        documentation;

    •   traced to supporting documentation Medicaid collections totaling $305,747,201
        ($214,747,859 Federal share) reported for our audit period on the CMS-64s;

    •   calculated, using the FMAP in effect at the time of each payment, the Federal share for
        selected Program Integrity and Third Party Liability recoveries; and

    •   summarized our findings and discussed our results with State agency officials.




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   6
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   7
                          APPENDIX C: FEDERAL REQUIREMENTS

FEDERAL REQUIREMENTS FOR REPORTING AND REFUNDING MEDICAID
COLLECTIONS

CMS reimburses each State at the FMAP for the quarter in which the expenditure was made
(section 1903(a)(1) of the Act). According to section 2500.1(B) of the Manual, the State agency
must report an overpayment or other collection on the CMS-64 report for the quarter in which
the recovery is made and must compute the Federal share of collections at the Federal matching
rate at which CMS matched the original expenditure.

When a State recovers a prior expenditure, it refunds the Federal share by reporting the recovery
on the CMS-64 at the FMAP used to calculate the amount it originally had received. The
Manual, section 2500.6(B), instructs States to:

        determine the date or period of the expenditure for which the refund is made to
        establish the FMAP at which the original expenditure was matched by the Federal
        government. Make refunds of the Federal share at the FMAP for which you were
        reimbursed. When recoveries cannot be related to a specific period, compute the
        Federal share at the FMAP rate in effect at the time the refund was received.




South Carolina Did Not Always Accurately Report the Federal Share of Medicaid Collections (A-04-13-00092)   8
                            APPENDIX D: STATE AGENCY COMMENTS
                                                                          - DUTil CAROLIN,ll. 	                                 e
                                                                          Healthy Connections
                                                                                                           MEDICAID             ~

                                                                                                   Nikki Haley .cO\ -·u, lR
                                                                                                  Anthony Keck OIH E ·· · •I'
                                                                                       P.O. Box 8206 · Columbia, SC 29202
                                                                                                          www.scdhhs.gov


                                              Jun e 11, 2014


Lori S. Pilcher
Regional Inspector General for Audit Services
US Department of Health & Human Services
Office of Audit Services, Region IV
61 Forsyth Street, SW Suite 3T41.
Atlanta, Ga 30303
                                                           Re: A-04-13-00092

Dear Ms. Pilcher;

The South Carolina Department of Health & Human Services (SCDHHS) has reviewed the
audit findings identified in the draft OIG report entitled: South Carolina Did NotA/ways
Accurately Report and Refund the Federal Share ofMedicaid Collections for july t 2011
through December 31, 2012. We offer the following response for your consideration.

Recommendation:
    • 	 Refund $444,806 to the Federal Government
    • 	 Develop and implement internal controls to ensure that it (SCDHHS) uses specific-period
        FMAP to calculate the Federal Share of TPL and PI collections to be refunded .
Response:
        SCDHHS concurs with the finding and agrees to refund the $444,806 back to the federal
Government prior to September 30, 2014 via a corresponding entry on the CMS 64 Medicaid
Expenditure Report. SCDHHS has begun development of internal control measures to calculate
recoveries in accordance w ith CMS iegulations 2500.1(8) of the State Medicaid Manual. This
systematic functionality is currently in test and is expected to be operational in FFY 2015 .




                                                           Sincerely,




                                                           Anthony E. Keck
                                                           Agency Director




                   South Carolina Department of Health and Human Services           Better care. Better value. Better health

South Carolina Did Not Always Accurately Report the Federal Share ofMedicaid Collections (A-04-13-00092)                 9
